No. 21-______________
SUPREME COURT OF THE UNITED STATES
SAMUEL EADDY,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

PROOF OF SERVICE
I, Thomas P. Ferrant, counsel for the Petitioner, do swear or declare that on this date, July
29, 2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI
and APPENDIX on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed and sent priority mail. The names
and addresses of those served are as follows:
Lawrence J. Goode, Esquire
Office of the District Attorney
Appeals Unit
Three South Penn Square
Philadelphia, PA 19107
I declare under penalty of perjury that the foregoing is true and correct.

Date: 7/29/2021

/S/
Thomas P. Ferrant
Attorney for the Petitioner
PO BOX 25080
Philadelphia, PA 19147
Tel. 215-987-6377
Email: tomferrant@ferrantlaw.com

